Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  THE MEDICARE CONTRACTOR
     FOR JURISDICTION F
   OVERPAID PROVIDERS FOR
 SELECTED OUTPATIENT DRUGS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      January 2014
                                                      A-09-13-02003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The Medicare contractor for Jurisdiction F overpaid providers by $3 million for selected
  outpatient drugs over 3 years. Providers identified additional overpayments of $298,000 as
  a result of our review.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that the Medicare contractor for
Jurisdiction F made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

During our audit period (July 1, 2009, through June 30, 2012), Noridian Healthcare Solutions,
LLC (Noridian), became the Medicare contractor for Jurisdiction F (Alaska, Arizona, Idaho,
Montana, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming). The
Medicare contractor paid providers $876.7 million for 1.4 million line items for selected
outpatient drugs. We reviewed 1,549 line items with total payments of $10.3 million that were at
risk for overpayment.

WHAT WE FOUND

Payments that the Medicare contractor for Jurisdiction F made to providers for 867 of the
1,549 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $3,051,653 and underpayments of $7,043 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $348,182 of overpayments for another 116 line items. The remaining 566 line
items were correct.



Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                 i
For the 834 incorrect line items with overpayments of $3,051,653 that had not been refunded,
providers reported incorrect units of service, reported a combination of incorrect units of service
and incorrect HCPCS codes, did not provide supporting documentation, used incorrect HCPCS
codes, billed for noncovered use of a drug, and billed separately for an outpatient drug for which
payment was packaged with the primary service. For the 33 incorrect line items with
underpayments of $7,043 that had not been adjusted, we notified the providers of the
underpayments so that they can decide whether to submit adjustment claims. Providers also
identified 252 additional line items that we did not review that resulted in overpayments of
$298,492.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because there were insufficient edits in place to prevent or
detect the overpayments.

WHAT WE RECOMMEND

We recommend that Noridian:

    •   recover the $3,051,653 in identified overpayments,

    •   verify the payment of $7,043 in identified underpayments,

    •   verify the recovery of $298,492 in additional provider-identified overpayments, and

    •   use the results of this audit in its ongoing provider education activities.

NORIDIAN COMMENTS

In written comments on our draft report, Noridian concurred with all of our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations.




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                 ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 Noridian Healthcare Solutions, LLC .................................................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................4

           Federal Requirements ....................................................................................................5

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Incorrect Number of Units of Service ................................................................5
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes ..................5
                  Lack of Supporting Documentation ...................................................................6
                  Incorrect Healthcare Common Procedure Coding System Codes ....................6
                  Noncovered Use of a Drug ................................................................................6
                  Billed Separately for Packaged Services ...........................................................6

           Underpayments to Providers That Billed Incorrectly ....................................................7

           Additional Overpayments Identified by Providers ........................................................7

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................8

NORIDIAN COMMENTS ........................................................................................................8

APPENDIXES
           A: Related Office of Inspector General Reports: Jurisdiction F ..................................9
           B: Audit Scope and Methodology ..............................................................................11
           C: Federal Requirements Related to Medicare Contractor Payment and
               Provider Billing for Selected Outpatient Drugs ..................................................13
           D: Noridian Comments ...............................................................................................15


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                                            iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction F.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractor for Jurisdiction F
made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient


1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim-payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of the reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                 1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.




4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to the Medicare contractors.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                2
Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care
organizations the opportunity to review and comment on the proposed edits. Medicare
contractors must include the medically unlikely edits in their payment systems. 7

Noridian Healthcare Solutions, LLC

During our audit period (July 1, 2009, through June 30, 2012), Noridian Healthcare Solutions,
LLC (Noridian), was the Medicare contractor for Jurisdiction F (Alaska, Arizona, Idaho,
Montana, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming). 8

HOW WE CONDUCTED THIS REVIEW

During our audit period, the Medicare contractor for Jurisdiction F paid providers $876.7 million
for 1.4 million line items for selected outpatient drugs. We reviewed 1,549 line items 9 with total
payments of $10.3 million that were at risk for overpayment. These line items were for
outpatient drugs with payment status indicator code “G” or “K.” 10 We used computer matching,
data mining, and other analytical techniques to identify the line items potentially at risk for
noncompliance with Medicare billing requirements. We evaluated compliance with selected
billing requirements, but we did not use medical review to determine whether services were
medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.




7
 CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.
8
 Effective February 1, 2012, CMS consolidated Jurisdictions 2 and 3 to form Jurisdiction F. Noridian was the
Medicare contractor for both Jurisdictions 2 and 3. Before May 13, 2013, Noridian was called Noridian
Administrative Services, LLC.
9
    In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
10
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                 3
                                                FINDINGS

Payments that the Medicare contractor for Jurisdiction F made to providers for 867 of the
1,549 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $3,051,653 and underpayments of $7,043 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $348,182 of overpayments for another 116 line items. The remaining 566 line
items were correct.

For the 834 incorrect line items with overpayments of $3,051,653 that had not been refunded,
providers:

    •   reported incorrect units of
        service on 330 line items,
        resulting in overpayments of
        $1,868,352;

    •   reported a combination of
        incorrect units of service and
        incorrect HCPCS codes on
        420 line items, resulting in
        overpayments of $941,907;

    •   did not provide supporting
        documentation for 24 line
        items, resulting in
        overpayments of $118,905;

    •   used incorrect HCPCS codes on 51 line items, resulting in overpayments of $83,189;

    •   billed for the noncovered use of a drug on 2 line items, resulting in overpayments of
        $20,597; and

    •   billed separately for an outpatient drug for which payment was packaged with the
        primary service on 7 line items, resulting in overpayments of $18,703.

For the 33 incorrect line items with underpayments of $7,043 that had not been adjusted, we
notified the providers of the underpayments so that they can decide whether to submit adjustment
claims. Providers also identified 252 line items that we did not review that had overpayments of
$298,492.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractor overpaid these providers because neither the CWF nor the FISS had sufficient edits in
place to prevent or detect the overpayments.




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)              4
FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital
outpatient services. They require that providers submit accurate and complete bills to Medicare
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 11

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 330 line items, resulting in overpayments of
$1,868,352. The incorrect units of service involved 57 different outpatient drugs. The following
are examples:

       •   One provider administered 200 and 250 micrograms of sargramostim to two patients and
           billed for 500 units of service (25,000 micrograms). Using the HCPCS description of
           sargramostim (injection, sargramostim (gm-csf), 50 micrograms), the correct numbers of
           units to bill for 200 and 250 micrograms were 4 and 5, respectively. On 20 separate
           occasions, these types of errors occurred, and as a result, the Medicare contractor paid the
           provider $228,801 when it should have paid $1,725, an overpayment of $227,076.

       •   Another provider administered 250 milligrams of fulvestrant to two patients and billed
           for 100 units of service (2,500 milligrams). Using the HCPCS description of fulvestrant
           (injection, fulvestrant, 25 milligrams), the correct number of units to bill for
           250 milligrams was 10. On 13 separate occasions, this type of error occurred, and as a
           result, the Medicare contractor paid the provider $91,136 when it should have paid
           $8,428, an overpayment of $82,708.

In total, the Medicare contractor paid 90 providers $2,473,445 when it should have paid
$605,093, an overpayment of $1,868,352.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
420 line items. These errors resulted in overpayments of $941,907. For example, 24 providers
billed Medicare on 415 line items for 2 to 12 units of service for leuprolide acetate injections
(HCPCS code J1950, 3.75 milligrams per unit), which is indicated for the treatment of
endometriosis, uterine leiomyoma, and malignant neoplasms of the breast. However, the
providers should have billed Medicare for 1 to 6 units of service for leuprolide acetate injections

11
     These requirements are found in the Act, section 1833(e), and the Manual, chapter 17, section 90.2.A.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                        5
(HCPCS code J9217, 7.5 milligrams per unit), which is indicated for the treatment of prostate
cancer and was the dose actually administered. As a result of these errors, the Medicare
contractor paid the providers $1,129,692 when it should have paid $216,688, an overpayment of
$913,004.

In total, the Medicare contractor paid 28 providers $1,161,449 when it should have paid
$219,542, an overpayment of $941,907.

Lack of Supporting Documentation

Fifteen providers billed Medicare on 24 line items for which the providers did not provide any
documentation to support that a patient had received the drug service billed. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $118,905 in overpayments that they received.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on 51 line items, resulting in overpayments of $83,189.
For example, one provider billed Medicare on one line item for 200 units of bevacizumab
(HCPCS code J9035). However, the provider should have billed for 200 units of azacitidine
(HCPCS code J9025), the drug actually administered. As a result of this error, the Medicare
contractor paid the provider $11,034 when it should have paid $830, an overpayment of $10,204.

In total, the Medicare contractor paid 12 providers $106,218 when it should have paid $23,029,
an overpayment of $83,189.

Noncovered Use of a Drug

Providers billed Medicare for the noncovered use of an outpatient drug on two line items. These
errors resulted in overpayments of $20,597. For example, one provider billed for a drug
(plerixafor) administered during a tandem bone-marrow transplant to a beneficiary with multiple
myeloma, a service that Medicare did not consider reasonable and necessary. Medicare does not
pay for drugs administered for services not considered reasonable and necessary. As a result of
this error, the Medicare contractor paid the provider $12,594 when it should have paid $0, an
overpayment of $12,594.

In total, the Medicare contractor paid two providers $20,597 when it should have paid $0, an
overpayment of $20,597.

Billed Separately for Packaged Services

Three providers billed Medicare for the lipid formulation of doxorubicin hydrochloride (HCPCS
code J9001) rather than the nonlipid formulation of doxorubicin hydrochloride (HCPCS code
J9000), the drug actually administered. These errors resulted in overpayments of $18,703.
Medicare pays for outpatient drugs that are considered primary procedures but does not pay
separately for outpatient drugs when their payment is packaged in the payment of a primary
procedure. Medicare has different HCPCS codes for similar drugs to distinguish which are paid
separately and which are not paid separately.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)             6
During the dates of service that each provider administered doxorubicin hydrochloride, Medicare
packaged the nonlipid formulation in the payment for related chemotherapy and did not provide
for separate reimbursement under the OPPS. This type of error occurred on seven separate
occasions; as a result, the Medicare contractor paid the providers $18,703 when it should have
paid $0, an overpayment of $18,703.

UNDERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY

Thirteen providers billed Medicare on 33 line items for outpatient drug services that included
either incorrect units of service or a combination of incorrect units of service and incorrect
HCPCS codes, resulting in underpayments of $7,043. We identified these underpayments and
notified the providers so that they can decide whether to submit adjustment claims for the
underpayment amounts.

ADDITIONAL OVERPAYMENTS IDENTIFIED BY PROVIDERS

Twenty-two providers identified 252 line items that we did not review that had overpayments of
$298,492. The providers identified these overpayments as a result of our review. These
overpayments were either outside our audit period or for quantities that we did not select for
review.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
systems errors included chargemaster 12 errors and other system errors.

The Medicare contractor overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
providers to notify the Medicare contractor of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 13

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.




12
  A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including
(1) a factor that converts a drug’s dosage to the number of units to bill and (2) whether to charge for waste.
13
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                 7
                                       RECOMMENDATIONS

We recommend that Noridian:

    •   recover the $3,051,653 in identified overpayments,

    •   verify the payment of $7,043 in identified underpayments,

    •   verify the recovery of $298,492 in additional provider-identified overpayments, and

    •   use the results of this audit in its ongoing provider education activities.

                                      NORIDIAN COMMENTS

In written comments on our draft report, Noridian concurred with all of our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations. Noridian’s comments are included in their entirety as Appendix D.




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)         8
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                           JURISDICTION F

                 Report Title                         Report Number                 Date Issued
 Review of Medicare Outpatient Billing                 A-09-12-02043                    12/4/2012
 for Selected Drugs at St. Luke’s Boise
 Medical Center
 Review of Medicare Outpatient Billing                 A-09-12-02061                    12/4/2012
 for Selected Drugs at Sky Lakes Medical
 Center
 The Medicare Contractor’s Payments in                 A-07-12-04186                11/20/2012
 Jurisdiction 3 for Full Vials of Herceptin
 Were Often Incorrect
 The Medicare Contractor’s Payments in                 A-09-12-02003                    11/6/2012
 Jurisdiction 2 for Full Vials of Herceptin
 Were Often Incorrect
 Review of Medicare Outpatient Billing                 A-09-12-02008                    4/13/2012
 for Selected Drugs at University of Utah
 Hospitals and Clinics
 Review of Medicare Outpatient Billing                 A-09-12-02011                    3/16/2012
 for Selected Drugs at Oregon Health &
 Science University
 Review of Medicare Outpatient Billing                 A-09-11-02058                11/28/2011
 for Selected Drugs at Yakima Valley
 Memorial Hospital
 Review of Medicare Outpatient Billing                 A-09-11-02059                11/28/2011
 for Selected Drugs at Providence
 Centralia Hospital
 Review of Medicare Outpatient Billing                 A-09-11-02033                    10/6/2011
 for Selected Drugs at Central Peninsula
 General Hospital
 Review of Medicare Outpatient Billing                 A-09-11-02051                    10/6/2011
 for a Selected Drug at Madison
 Memorial Hospital
 Review of Medicare Payments Exceeding                 A-07-10-04163                    5/26/2011
 Charges for Outpatient Services
 Processed by Noridian Administrative
 Services, LLC, in Jurisdiction 3 for the
 Period January 1, 2006, Through
 June 30, 2009



Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)               9
                 Report Title                         Report Number                 Date Issued
 Review of Medicare Payments Exceeding                 A-09-10-02019                    4/28/2011
 Charges for Outpatient Services
 Processed by Noridian Administrative
 Services, LLC, in Jurisdiction 2 for the
 Period January 1, 2006, Through
 June 30, 2009
 Review of High-Dollar Payments for                    A-07-08-04135                    8/24/2009
 Medicare Part B Claims Processed by
 Noridian Administrative Services, LLC,
 for the Period January 1, 2003, Through
 December 31, 2005




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)               10
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractor for
Jurisdiction F paid providers $876.7 million for 1.4 million line items for selected outpatient
drugs. We reviewed 1,549 line items, totaling $10.3 million, that the Medicare contractor paid to
118 providers. 14 We did not review entire claims; rather, we reviewed specific line items within
the claims. These line items included selected outpatient drugs with payment status indicator
code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that include a pass-
through payment. 15 “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals,
brachytherapy sources of radiation, blood, and blood products paid using the OPPS without a
pass-through payment.

We did not review the overall internal control structure of the Medicare contractor or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractor’s internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from December 2012 to June 2013 and performed fieldwork by
contacting Noridian in Fargo, North Dakota, and 118 providers that received the selected
Medicare payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with payment status indicator code “G” or “K”) for
         which Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single
         date of service because these line items were at risk for noncompliance with Medicare
         billing requirements;

14
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.
15
 Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount.


Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                11
    •   selected 1,549 line items at risk of error, totaling $10,300,306, that the Medicare
        contractor paid to 118 providers;

    •   requested that 118 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to the claim due to changes in
        the allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractor;

    •   discussed the results of our review with providers and the Medicare contractor; and

    •   summarized the results of overpayments for line items that were not included in our
        review but were identified by the provider as a result of our audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)               12
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
        CONTRACTOR PAYMENT AND PROVIDER BILLING FOR SELECTED
                          OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”

The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”



Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)              13
The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug in
which an “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4 ….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)              14
                                 APPENDIX D: NORIDIAN COMMENTS 




       no;;d1an
              Healthcare Solutions
                                                                                                            900 42nd StreetSouth
                                                                                                                 Fargo, NO 581D3




       December 20, 2013




       Report Number: A-09-13-Q2003


       Lori A. Ahlstrand
       Regional Inspector General for Audit Services
       Office of Audit Services, Region IX
       90-71h St, Suite 3-650
       San Francisco, CA 94103


       Dear Ms. Ahlstrand,


       Noridian Healthcare Solutions, LLC has reviewed the draft report, entitled The Medicare Contractorfor Jurisdiction F
       Overpaid Providersfor Selected Outpatient Drugs. Below are our comments and responses to the OIG's
       recommendations.


       We concur with all of the recommendations.


       The first OIG recommendation was that Noridian recover $3,051,653 in identified overpayments to providers for 867
       of the 1,549 line items for outpatient drugs that were not correct. Noridian has reviewed the OIG provided
       spreadsheet and finds that only $568,067 remains to be recouped. We will continue our efforts to recoup the
       remaining Identified overpayments.


       The second OIG recommendation was that Noridian verify the payment of $7,043 in identified underpayments.
        Noridian has reviewed the spreadsheet and finds that providers have chosen to reprocess all but $1,765. Noridian
       will continue to verify the adjustment of the underpayments.


       The third OIG recommendation was that Noridian verify the recovery of $298,492 in additional provider-Identified
       overpayments. Noridian has reviewed the spreadsheet and finds that $174,728 remains to be recouped as an
        overpayment. We will continue to verify recovery of these provider-identified overpayments.


       The fourth OIG recommendation was that Noridian use the results of this audit in its ongoing provider education
       activities. Noridian plans to issue articles and Include information in provider training as applicable to the issues
        noted in this report.




        A CMS Medicare Administrative Contractor
                                                                                                                    29312033 (3203) 4-13




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                                      15
       We appreciate the opportunity to comment on this report and the findings. Ifyou have any questions on this
       response and Noridlan's actions, please contact Emy Stenerson, Senior Vice President and JF Project Manager at
       701-282-1356.

       Sincerely,

                    .....   .._
       Jeanne Narum, 

       Vice President of Compliance and Audit 


       cc: 	   Pamela Bragg, JF COR, CMS
               Tom McGraw, CEO and President of Noridian Healthcare Solutions, LLC




Medicare Overpayments in Jurisdiction F for Selected Outpatient Drugs (A-09-13-02003)                                   16
